May 31, 2002
Audit Report No. 02-019


Audit of the Professional Liability
Claims Process
                        TABLE OF CONTENTS

BACKGROUND                                       1

RESULTS OF AUDIT                                 3

CORPORATION COMMENTS AND OIG EVALUATION          4

APPENDIX I: Objective, Scope, and Methodology    5

APPENDIX II: Summary of Prior Coverage           9

APPENDIX III: Pertinent Federal Laws             11

APPENDIX IV: Overview of Investigation Process   13
             for Professional Liability Claims

APPENDIX V: Glossary of Terms                    14
Federal Deposit Insurance Corporation                                                                          Office of Audits
Washington, D.C. 20434                                                                             Office of Inspector General




   DATE:                                May 31, 2002

   TO:                                  Mitchell L. Glassman, Director
                                        Division of Resolutions and Receiverships

                                        William F. Kroener, III, General Counsel
                                        Legal Division

   FROM:                                Russell A. Rau [Electronically produced version; original signed
                                        by Russell Rau]
                                        Assistant Inspector General for Audits

   SUBJECT:                             Report Entitled Audit of the Professional Liability Claims
                                        Process (Audit Report Number 02-019)


   The Office of Inspector General (OIG) has completed an audit of the Federal Deposit
   Insurance Corporation's (FDIC) professional liability claims1 process. These professional
   liability claims are claims under civil law for losses caused by the wrongful conduct of people
   or organizations that have provided professional services to a failed insured depository
   institution. The FDIC Division of Resolutions and Receiverships works closely with the FDIC
   Legal Division to identify, investigate, and pursue these claims. As of January 31, 2002, the
   FDIC was tracking potential or open claims related to 79 failed institutions (33 institutions
   with pending investigations or lawsuits and 46 failed institutions with outstanding collections
   of a settlement or judgment). For 2001, collections to the FDIC from professional liability
   claims for 41 failed institutions totaled $128.6 million. The audit objective was to determine
   whether professional liability claims were identified, developed, pursued, and tracked in
   compliance with FDIC policies and procedures. Appendix I of this report discusses our
   objective, scope, and methodology in more detail.

   BACKGROUND

   When an institution fails, the FDIC is appointed as receiver2 to liquidate the institution’s
   assets and liabilities in the most expedient and cost-effective manner possible.3 The FDIC's
   1
     There are 11 possible professional liability claims categories for each failed institution. These are (1) director
   and officer, (2) fidelity bond, (3) accountant, (4) attorney, (5) appraiser, (6) security brokers, (7) commodities
   brokers, (8) borrower fraud, (9) director and officer insurance, (10) issuer, and (11) other. (See Appendix V for
   definitions of each type of claim.)
   2
     As receiver, the FDIC may collect all obligations and money due to the institution and preserve and liquidate its
   assets. The FDIC can also be appointed as a conservator, operating the institution for a period of time in order to
   return the institution to a sound and solvent operation.
   3
     If there is any excess cash generated from the sale of assets less disposition costs and reserves met (cash it must
   hold to meet the obligations of the receivership), then a dividend may be declared. The priority of dividend
   distribution is as follows: administrative expenses of the receiver, any deposit liability of the institution, any
   other general or senior liability of the institution, any subordinated obligations, and any obligations to the
   shareholders.
roles and responsibilities when serving as a receiver are defined by specific statutory
provisions contained in the Federal Deposit Insurance Act (FDI Act) of 1950 as codified in
12 U.S.C. 1821 (d) "powers and duties of the Corporation as conservator or receiver." In
addition, the FDIC has an important role in recovering losses from these failures that may
have arisen from a breach of professional fiduciary responsibilities. The FDIC, as receiver,
acquires legal rights, titles, and privileges that are generally known as professional liability
claims. Professional liability claims are addressed in 12 U.S.C. 1821 sections (k) "liability of
directors and officers" and (l) "damages." Excerpts of pertinent federal laws are contained in
Appendix III.

The FDIC's objective is to discharge statutory duties and maximize recoveries through the
pursuit of claims against those whom the FDIC believes contributed to the failure of the
respective institution. The FDIC pursues the institution's legal causes of action in order to
collect on these claims. Such pursuit often takes the form of lawsuits against professionals for
losses resulting from their breach of duty to the failed institution. These legal causes of action
include bond, directors' and officers' liability, and professional malpractice claims against
insurance carriers and/or other professionals whose actions or inaction caused damage or
losses to the institution. These claims are typically based on the application of civil law.4
Professional liability claims are treated as assets of the receivership. These claims can be
quite complex and contentious, often requiring many years and substantial investments in
investigation and litigation before actual recovery is realized in any particular case.

According to the FDIC's General Counsel, no claim is pursued unless it satisfies both
components of a two-part test. First, the claim must be sound on the merits. Second, any
necessary litigation must likely be cost-effective, considering any liability insurance coverage
and the personal assets held by the individuals believed to be responsible for the wrongdoing.
Besides the actual cash collections, the professional liability program seeks to have a positive
impact on the overall awareness of professional standards.

The overall objectives of the FDIC's professional liability claims process are first to investigate
all potential claims resulting from each receivership and then to recover losses based on
meritorious claims in a cost-effective manner. The principal participants, with a shared task
and responsibility, are the Investigations Unit (IU) of DRR's Receivership Operations Branch
and the Legal Division's Professional Liability Unit (PLU).5 The work of the DRR IU group is
heavily focused on the events and actions associated with pre-closing, closing, and post-
closing activities up to the decision to pursue or close out a claim. The PLU attorneys are
primarily focused on the litigation phase and, if necessary, the subsequent oversight of outside
fee counsels. Prior to and at each bank closing, DRR IU investigators and PLU attorneys,
using checklists, identify and collect all available records associated with potential claims.
Both entities must justify, document, and approve any decision to close out or pursue a claim.
If both DRR IU and the PLU attorneys agree that a claim should be pursued, the PLU attorney
will prepare an Authority to Sue (ATS) document. The FDIC Board of Directors must approve
the ATS document before the claim can be pursued. This ATS document contains an estimate
of the expected recovery amount, the estimated cost of recovery efforts using either in-house

4
  Most professional liability claims have a 3-year statute of limitations. At a minimum, Section 1821(d)(14) of
FIRREA gives the FDIC 6 years from appointment of a receiver or conservator to bring a professional liability
claim based on a contract and 3 years to bring a tort (wrongful act or damage done willfully or by negligence)
claim.
5
  Effective May 17, 2002, the PLU was renamed the Receivership Litigation and Policy Section.
                                                        2
or outside fee counsel and, if appropriate, a discussion of non-monetary benefits. A flow chart
of the investigation process for professional liability claims is included as Appendix IV.

If outside counsel is retained, PLU uses a set solicitation process, Legal Services Agreements,
and an approved budget process. PLU also tracks outside fee counsel expenditures using the
Legal Payments System. Once a settlement occurs, payments or collections are remitted to the
FDIC either via a direct wire transfer, mailed to a designated lock box, or mailed directly to
pertinent PLU attorneys.

IU investigators and PLU attorneys work closely to resolve claims. To assist and facilitate the
timely disposition of claims, DRR and the Legal Division have a shared annual strategic and
performance planning goal that calls for completion of 80 percent of all investigations
(completion signifies a decision to pursue or close a matter) within 18 months from the date of
an institution failure.

DRR’s Receivership Operations Branch completed a substantive reorganization in 2000 that
both reduced staff and restructured the work so staff works on both criminal and civil
investigative cases. As of April 30, 2002, the DRR IU had 33 staff persons assigned to
investigations, 26 in Dallas and 7 in Washington. Of the 26 staff in Dallas, 3 are supervisors,
14 are investigators, and 9 are technicians. All of the Dallas IU staff work on both criminal
restitutions and professional liability claims. Of the DRR IU Washington staff, two work on
both criminal and civil matters, two are dedicated to criminal restitutions and three work only
professional liability claims. The Legal Division's most recent reorganization effort began in
March 2002. As of April 30, 2002, PLU had two senior counsel, eight attorneys, seven
paralegals, and eight technical support and/or secretarial staff. PLU staff work only on
professional liability claims and most staff are located in Washington, D.C.

DRR uses and maintains the Division of Liquidation Locating and Reporting System
(DOLLARS). DOLLARS was designed to track the status and progress of criminal restitution
orders and professional liability claims. Concurrently, the Legal Division uses the PLS Case
Tracking System (PLSCTS) to track the development and status of each professional liability
service matter.


RESULTS OF AUDIT

The DRR's IU and the Legal Division's PLU were complying with FDIC policies and
procedures for identifying, developing, pursuing, and tracking professional liability claims.
We reviewed 33 potential claims (11 possible civil claim categories for 3 sampled failed
institutions). Of the 33, the Corporation had closed 26 and was pursuing 7. The IU and PLU
identified, investigated, and closed the 26 claims in accordance with established policies and
procedures. Likewise, the 7 claims were being processed, disposed of, or litigated in
accordance with established policies and procedures. Further, both DRR and PLU officials
properly recorded the information accurately and timely into DOLLARS and PLSCTS.

The FDIC investigates potential professional liability claim areas in all failed institutions. To
expedite net returns to the receivership, DRR and PLU have as a shared corporate strategic
goal making a decision to close or pursue all professional liability claim areas within 18
months after the failure. This goal also seeks to ensure that the Corporation prioritizes the
                                                3
allocation and use of its resources and professional services in a concerted effort towards
resolving a claim within the 3-year statute of limitations. PLU reported that the 18-month
goal was achieved for nine failed institutions during 2001. Our sample, containing two
institutions that closed in 1999 and 2000, had claims that did not meet the 18-month criteria
because of extenuating circumstances. We discussed the circumstances with responsible
management officials and were satisfied that the claims were being processed effectively
given the circumstances.


CORPORATION COMMENTS AND OIG EVALUATION

On May 22, 2002, the OIG provided the Director of DRR and the Legal Division's General
Counsel with the draft report for comment. Corporate officials did not provide any formal
comments. However, the Legal Division provided informal oral comments and comments by
way of e-mail addressing the clarification of certain legal matters. These comments were
considered and, where appropriate, changes were made to the report.

One matter raised by the Legal Division merits discussion. This matter concerns the shared
corporate strategic goal of making a decision to close or pursue all professional liability claim
areas within 18 months after the failure. The goal is somewhat ambiguous. The OIG believes
it is institution-specific. The Legal Division's position as expressed in the e-mail is that "the
18 month goal is to reach a decision to sue with respect to, or to close out, PL investigations in
80% (not “all”) of all investigations open in PLU. In addition, the 80% goal is program-wide,
not institution specific; that is, the goal is not to close 80% of investigations for each failed
institution individually but to close 80% of investigations overall. For example, PLU may
succeed in closing out only 60% of the investigations for institution A but 100% of the
investigations for institution B within 18 months, but these two “balance out” to 80% when
taken together - and the goal is met in this example." The OIG agrees that from a
program-wide perspective, the PLU did achieve its 80 percent goal for the nine failed
institutions in 2001.




                                                4
                                                                           APPENDIX I

                     OBJECTIVE, SCOPE, AND METHODOLOGY

The audit objective was to determine whether professional liability claims were identified,
developed, pursued, and tracked in compliance with FDIC policies and procedures. The audit
scope included potential professional liability claims resulting from the 19 institutions that
failed during 1999, 2000, and 2001. The FDIC Division of Resolutions and Receiverships
(DRR) and the Legal Division jointly identify, develop, pursue, and track 11 civil claim
categories for a receivership. The civil claims are collectively referred to as professional
liability claims. The team judgmentally sampled 3 receiverships--First National Bank of
Keystone, Keystone, West Virginia; Town and Country Bank of Almelund, Almelund,
Minnesota; and the Malta National Bank, Malta, Ohio--to determine risk in relation to the
audit objective. Our judgmental sample considered the size of institution, type of claims,
collections or lack of collections, and geographic dispersion. We performed our work from
December 2001 through March 2002 in accordance with generally accepted government
auditing standards.


Methodology

The professional liability claims process has evolved over time. It is complex, involving a
multitude of participants, including DRR's Receivership Operations Branch, the Legal
Division's Professional Liability Unit, the Division of Finance's (DOF) Cashier's Office, and
the Division of Administration's (DOA) Facility Services mailroom operations. The FDIC's
roles, responsibilities, and activities associated with developing, pursuing, and tracking
professional liability claims are outlined in pertinent governing legislation and the FDIC's
policies and procedures. To gain an understanding of these policies, procedures, and
legislation, our audit methodology included reviewing the:

•   Federal Deposit Insurance Act of 1950, dated September 9, 1950, as amended;
•   Financial Institutions Reform, Recovery, and Enforcement Act (FIRREA), PL. 101-703
    (1989);
•   DRR Investigations Procedures Manual;
•   The Legal Division's PLU Procedures Manual, 1998 and 2001 revisions;
•   FDIC Circular 7000.1 DOS/DRR Information Sharing for Failing Institutions, December
    1999;
•   DRR Bank Closing Manual;
•   FDIC Statement of Policy on Statement Concerning the Responsibilities of Bank Directors
    and Officers, April 30, 1997;
•   FDIC Circular 4200.2 Procedures for Processing Cash, Check and Wire Transfer
    Remittances Due the FDIC in its Receivership Capacity, August 11, 2000;
•   Dallas Regional Office/Facility Services' Standard Operating Procedures on Mailroom
    Operations, revised date August 31, 1999, and FDIC's New Facility for Headquarters Mail
    Processing, Security Update, effective October 29, 2001;
•   Memorandum of Understanding, dated February 7, 1997, between DOF/National Finance
    Center and the Legal Division/Professional Liability Section, subject: Procedures for
    Collections of Bond and Professional Liability Claims;

                                               5
                                                                             APPENDIX I

•   DOF Memorandum on Procedures for Collections of Bond and Professional Liability
    Claims, February 17, 1997; and
•   Legal Services Agreements.

Our methodology also included interviewing:

•   Management and staff from DRR’s Field Operations Branch office in Dallas, Texas, and
    DRR’s Receivership Operations Branch in Washington, D.C.;
•   Attorneys with the Legal Division’s Professional Liability Unit in Dallas, Texas, and
    Washington, D.C.;
•   Officials in the Division of Finance’s Field Finance Center in Dallas, Texas; and
•   Officials from the Division of Administration's Facilities Management Section for mail
    room operations and activities in Dallas, Texas, and Washington, D.C.

We reviewed the detailed procedures in the Investigation Procedures Manual as well as the
Bank Closing Manual for the identification and development of potential claims. We
developed flow charts and checklists of the various steps and phases of claims development.
We identified the critical internal control points as those generally associated with required
documents (for example close-out memorandums or ATS documents) and the required
approval levels. We then reviewed the 33 case files and interviewed respective investigators
and attorneys about their collection efforts for these three failed banks. In the process, we
completed the checklists on each failed bank, identifying the key control points and testing for
compliance with required procedures. We also attended the annual review committee meeting
wherein DRR investigation officials and PLU attorneys discussed how to resolve and
overcome problems on active civil claims, including those in litigation. We looked at PLU
reports (monthly, quarterly, end-of-year) and reviewed the corresponding information reported
in DOLLARS and PLSCTS.

The work of the DRR IU is heavily focused on what we refer to as the events and actions
associated with pre-closing, closing, and post-closing activities up to the decision to pursue or
close out a claim (See flow chart in Appendix IV). The professional liability attorneys are
primary focused on the litigation phase and, if necessary, the subsequent oversight of outside
counsel.

To determine whether DRR's IU and/or the Legal Division's PLU had any performance
measures that we should consider in this audit, we reviewed respective 2001 and 2002
Strategic and Annual Performance Plans. We identified one shared strategic goal related to
collection efforts for civil claims. Investigations are conducted into potential liability claim
areas in all failed institutions. The target is to make a decision to close or pursue all
professional liability claim areas within 18 months after the failure. PLU reported that the
18-month goal was achieved for nine failed institutions during 2001. Our sample, containing
two institutions that closed in 1999 and 2000, had claims that did not meet this criteria
because of extenuating circumstances. We discussed the circumstances with responsible
management and determined that the claims were being processed effectively given the
circumstances.


                                                6
                                                                              APPENDIX I

We reviewed the FDIC's policies and procedures for the receipt and handling of professional
liability claim collections whether by wire transfer, check, and/or the use of a lock box. We
identified, flowcharted, and documented the handling and recording of “collections”.
Additionally, we developed and used a structured checklist (based on corporate procedures) for
interviews with both PLU attorneys and facilities services officials regarding internal controls and
actual collection practices. We reviewed the FDIC's Office of Internal Control Management
internal control review reports on the Legal Division's monetary receipt process. We did not
sample or test the actual receipt of collections because the average monthly volume of checks was
minimal. Consequently, we make no conclusion on the actual operation of the collections process
and controls.

To assess whether DRR and the Legal Division were accurately reporting information concerning
professional liability claims, we compared the information in the hard copy files for our sampled
claims to that contained in DOLLARS and in PLSCTS. We conducted additional tests as
described below in the section entitled Reliance on Computer-Processed Data.


Reliance on Computer-Processed Data

We identified four individual databases that contain information related specifically to
professional liability claims.

DRR uses and maintains the Division of Liquidation Locating and Reporting System
(DOLLARS). This application does not feed data to a major FDIC application through an
automated interface and is not identified by DRR as being mission critical. DOLLARS is
DRR’s database for storing and tracking information on failed financial institutions.
DOLLARS was designed to track the status and progress of professional liability claims and
court-ordered restitutions.

PLU uses and provides information for the Legal Management Information System (LMIS).
Staff attorneys are responsible for the accuracy and currency of the data in LMIS. LMIS is a
multi-user application that the Legal Division uses to manage legal matter information and
documents. A matter is added to LMIS when a member of the Legal Division engages in a
legal analysis or performs a legal process that results in the production of a substantive work
product, either written or oral.

The PLS Case Tracking System (PLSCTS) is used to track the development and status of each
professional liability service matter. Staff attorneys are solely responsible for the accuracy
and currency of information. Each matter in PLSCTS must have a corresponding matter in
LMIS. PLS paralegals will add new matters and update existing matters in LMIS. However,
they are dependent on the attorneys providing them with the necessary information.

The Legal Payment System (LPS) is a payment and tracking system for Outside Counsel
invoices and budgets. It also allows the user to view legal matter data and Outside Counsel
data. LPS interfaces with LMIS overnight to update legal matter information. The matter
number in LPS is the same as the matter number in LMIS.
                                                 7
                                                                            APPENDIX I

On this assignment, we focused primarily on DOLLARS and PLSCTS because these were the
two systems that managers used extensively for tracking and reporting on professional
liability claims. We obtained and reviewed DIRM’s Information Security Section security
reports such as sensitivity assessment questionnaires and individual security review reports.
We obtained access to each of the database systems. Then, we downloaded system bank
information and reports and tested information via file reviews and/or interviews with DRR
investigative officials and PLU attorneys relative to respective failed banks. We verified the
system’s user access listings and authority levels. We assessed the reliability of these data by
comparing information in the failed bank files with that recorded in the management
information systems and later used by management in periodic reports. We also conducted
tests of the data in conjunction with our samples of claims described above. As a result of the
tests and assessments, we concluded that the computer-processed data were sufficiently
reliable to be used in meeting the audit objectives.




                                               8
                                                                            APPENDIX II

                          SUMMARY OF PRIOR COVERAGE


We reviewed testimony by the U. S. General Accounting Office (GAO) that relates to
professional liability claims collection efforts by the federal government. DRR Internal
Review had not performed any reviews on professional liability claims. Conversely, the
Legal Division's Internal Review group issued, and we reviewed, two visitation reports on the
PLU activities. Also, the OIG issued an audit memorandum in 1998 to the FDIC's General
Counsel on the processing of Legal Division remittances. This was followed by an OICM
detailed review of the area.

1.     Bank and Thrift Failures: RTC Needs to Improve Planning for Professional Liability
       Staff Changes (GAO/T-GGD-92-69, August 11, 1992). Testimony before the
       Committee on Banking, Housing, and Urban Affairs, United States Senate. GAO
       testified that both the Resolution Trust Corporation (RTC) and FDIC needed to
       improve their professional liability programs. GAO noted that staff shortages,
       inadequate asset tracing procedures, and weak oversight had limited these agencies'
       ability to pursue potential civil liability claims arising from insured bank and thrift
       failures.

2.     DRR Internal Reviews (none)

3.     OIG Audit Memorandum to FDIC's General Counsel on "Processing Remittances",
       dated December 9, 1998. The current professional liability remittance processing
       practices do not provide for functional separation of duties for the receipt of funds and
       do not provide for maximizing interest income.

4.     Legal Division, Internal Review, Visitation Reports

       (a) PLU Visitation Report, June 19, 1998, mentions unit strengths as knowledge and
       experience of attorneys, communication between staff, and usefulness of policies and
       procedures. Unit weaknesses were a lack of defined roles, lack of sufficient detail in
       LMIS, lack of utilization of technicians and secretaries, and lack of consistency in
       contents of files.

       (b) PLU Visitation Report, May 24, 2000, mentions recommendations wherein file
       labels should include LMIS number, PLU should put matters in automated records
       management system, the Legal Division should list judgements and settlements that
       are being timely paid as inactive, and passwords should be protected. Primary
       problems identified were a lack of coordination between the Legal Division and IU
       investigators and various problems with data and utilization of LMIS.

5.     OICM Internal Control Review(s) on: "Follow-up on Matters for Further
       Consideration-Receipts", March 25, 1999, and OICM's "Legal Division Review of
       Monetary Receipts", August 30, 1999. In response to concerns raised by the OIG over
       legal remittances processing, OICM initiated a review to determine the extent to which
       remittances were identified, processed and accounted for in a timely manner. OICM's

                                               9
                                                                     APPENDIX II

analysis of the process disclosed low level internal control risks related to the custody,
segregation, and posting of legal remittances. Nevertheless, it did identify the need to
revise or implement new procedures to address weaknesses in the current remittance
process. Among other things, it recommended that the Legal Division, together with
the Division of Finance (DOF) establish a PLU lock-box or mail box, revise current
policies and procedures to enhance controls over the process, ensure the proper
application of collections to appropriate accounts, and perform periodic reconciliations
with DOF to verify the final disposition of settlements. We noted that both DOF and
PLU had taken corrective action. According to an OICM official, OICM had not re-
visited the area but planned to do so in the future.




                                       10
                                                                             APPENDIX III

                               PERTINENT FEDERAL LAWS

Federal Deposit Insurance Act of 1950, as amended October 31, 1994

Pertinent sections include:

12 U.S.C. 1821 (d) “Powers and duties of Corporation as conservator or receiver” under (2)
General powers, (A) Successor to institution, states: "The Corporation shall, as conservator or
receiver, and by operation of law, succeed to (i) all rights, titles, powers and privileges of the
insured depository institution, and of any stockholder, member, accountholder, depositor,
officer or director of such institution with respect to the institution and the assets of the
institution; and (ii) title to the books, records, and assets of any previous conservator or other
legal custodian of such institution."

12 U.S.C. 1821 (d) (18) addresses asset freezes. Section (18) "Attachment of assets and other
injunction relief" states:" Subject of paragraph (19), any court of competent jurisdiction may,
at the request of- (A) the Corporation (in the Corporation's capacity as conservator or receiver
for any insured depository institution or in the Corporation's corporate capacity with respect to
any asset acquired or liability assumed by the Corporation under section 1821, 1822, or 1823
of this title); or (B) any conservator appointed by the Comptroller of the Currency or the
Director of the Office of Thrift Supervision, issue an order in accordance with Rule 65 of the
Federal Rules of Civil Procedure, including an order placing the assets of any person
designated by the Corporation or such conservator under the control of the court and
appointing a trustee to hold such assets."

12 U.S.C. 1821 (k) "Liability of directors and officers" states: " A director or officer of an
insured depository institution may be held personally liable for monetary damages in any civil
action by, on behalf of, or at the request or direction of the Corporation, which action is
prosecuted wholly or partially for the benefit of the Corporation- (1) acting as conservator or
receiver of such institution, (2) acting based upon a suit, claim, or cause of action purchased
from, assigned by, or otherwise conveyed by such receiver or conservator, or (3) acting based
upon a suit, claim, or cause of action purchased from, assigned by, or otherwise conveyed in
whole or in part by an insured depository institution or its affiliate in connection with
assistance provided under section 13, for gross negligence, including any similar conduct or
conduct that demonstrates a greater disregard of a duty of care (than gross negligence)
including intentional tortious conduct, as such terms are defined and determined under
applicable State law. Nothing in this paragraph shall impair or affect any right of the
Corporation under other applicable law."

12 U.S.C. 1821 (l) "Damages" states: " In any proceeding related to any claim against an
insured depository institution's director, officer, employee, agent, attorney, accountant,
appraiser, or any other party employed by or providing services to an insured depository
institution, recoverable damages determined to result from the improvident or otherwise
improper use or investment of any insured depository institution’s assets shall include
principal losses and appropriate interest."



                                               11
                                                                            APPENDIX III


Financial Institutions Reform, Recovery, and Enforcement Act (FIRREA), P.L.101-73 (1989)

FIRREA provides that the statute of limitations for tort claims brought by the FDIC is either
3 years or the period applicable under state law, whichever is longer. The courts have added
the further requirement that the claim must not be barred under state law at the time the FDIC
is appointed as receiver.

This is codified in 12 U.S.C. 1821 (d) (14) Statute of limitations for actions brought by
conservator or receiver (A) In general: "Notwithstanding any provision of any contract, the
applicable statute of limitations with regard to any action brought by the Corporation as
conservator or receiver shall be-- (i) in the case of any contract claim, the longer of- (I) the
6-year period beginning on the date the claim accrues; or (II) the period applicable under State
law; and (ii) in the case of any tort claim (other than a claim which is subject to section 1441a
(b) (14) of this title), the longer of-(I) the 3-year period beginning on the date the claim
accrues; or (II) the period applicable under State law."




                                               12
                                                                                          APPENDIX IV

                          OVERVIEW OF INVESTIGATION PROCESS
                          FOR PROFESSIONAL LIABILITY CLAIMS


                                             DOS Examinations


 Prepared by Investigator
 Forwarded to PLU Attorney                   Pre-Closing Report


                                         Institution Failure                   90-day timeframe to
                                                                               complete closing report

   Prepared by Investigator                    Post-Closing
   Reviewed by Supervisor                        Report
   Forwarded to PLU Attorney




                                       Plan of Investigation
                  DRR Investigators and PLU attorneys
                  Listing of each potential claim
                  Narrative of theory of claim, risks, recovery sources, and costs
                  Timeline for investigating and resolving




                                                                            DRR and PLU review the plan on
                                                                            as-needed basis (mini-reviews)

                                        DRR/PLU mutual
                                        decision made to
                                        pursue or close out
                                                                               DRR and the Legal Division’s
                                        the claim                              Strategic Goal is to have reached
                                                                               the point of close-out or authority
                                                                               to sue within 18 months of failure




Authority to Sue--Drafted by PLU and                     Close-Out Memo
approved by FDIC Board except for fidelity               Drafted by Investigator and PLU Attorney
bonds that are approved at appropriate                   Approved by Senior Counsel and Investigations
DRR/ PLU levels.                                         Manager




                                                        13
                                                                            APPENDIX V

                                  GLOSSARY OF TERMS

1. Director and Officer -- Investigation of whether former directors and officers of an
   institution may have caused actionable losses to the institution.

2. Fidelity Bond -- Investigation of acts that (1) may have been discovered during the
   coverage of any fidelity bond purchased by the institution and (2) may be covered by the
   terms of the fidelity bond.

3. Accountant -- Investigation of accounting firms and accountants whose work for the
   failed institution or for others may have caused actionable losses to the institution.

4. Attorney -- Investigation of attorneys and law firms whose work, either for the institution
   or for others, may have caused actionable losses to the institution.

5. Appraiser -- Investigation of appraisal firms and individual appraisers whose work for the
   institution or for others may have caused actionable losses to the institution.

6. Security Brokers -- Investigation of entities or individuals that performed service for the
   institution regarding the purchase or sale of securities that may have caused actionable
   losses to the institution.

7. Commodities Brokers -- Investigation of entities or individuals that performed service
   for the institution regarding the purchase or sale of commodities that may have caused
   actionable losses to the institution.

8. Borrower Fraud -- Investigation of persons or entities who gave false or misleading
   information to an institution in order to induce the institution to loan money, where that
   loan may have caused actionable losses to the institution.

9. Director and Officer Insurance – Investigation of whether former directors and officers
   had insurance coverage and whether it covers any acts investigated in 1. above. Resulting
   litigation is usually a declaratory judgement action.

10. Issuer – Investigation of whether the issuer of any insurance policies may have caused
    actionable losses to the institution.

11. Other -- Investigation of whether other professionals or control persons of an institution
    may have caused actionable losses to the institution.


Source: The Legal Division’s Professional Liability Unit




                                              14
